      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General


                                                                         Washington, D.C. 20201




July 14, 2011

TO:             Donald M. Berwick, M.D.
                Administrator
                Centers for Medicare & Medicaid Services


FROM:           /Lori S. Pilcher/
                Acting Deputy Inspector General for Audit Services


SUBJECT:        Review of Medicaid Administrative Costs Claimed for the Pennsylvania
                Department of Aging’s Direct Care Worker Initiative (A-03-10-00206)


Attached, for your information, is an advance copy of our final report on Medicaid
administrative costs claimed for the Pennsylvania Department of Aging’s Direct Care Worker
Initiative. We will issue this report to the Pennsylvania Department of Public Welfare within 5
business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or
Stephen Virbitsky, Regional Inspector General for Audit Services, Region III, at (215) 861-4470
or through email at Stephen.Virbitsky@oig.hhs.gov. Please refer to report number
A-03-10-00206.


Attachment
   DEPARTMENT OF HEALTH & HUMAN SERVICES                              OFFICE OF INSPECTOR GENERAL

                                                                      Office of Audit Services, Region III
                                                                      Public Ledger Building, Suite 316
                                                                      150 S. Independence Mall West
                                                                      Philadelphia, PA 19106-3499



July 19, 2011

Report Number: A-03-10-00206

Ms. Karen Deklinski
Acting Deputy Secretary for Administration
Pennsylvania Department of Public Welfare
P. O. Box 2375
Harrisburg, PA 17105-2375

Dear Ms. Deklinski:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicaid Administrative Costs Claimed for the
Pennsylvania Department of Aging’s Direct Care Worker Initiative. We will forward a copy of
this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Robert Baiocco, Audit Manager, at (215) 861-4486 or through email at
Robert.Baiocco@oig.hhs.gov. Please refer to report number A-03-10-00206 in all
correspondence.

                                             Sincerely,



                                             /Stephen Virbitsky/
                                             Regional Inspector General
                                              for Audit Services


Enclosure
Page 2 – Ms. Karen Deklinski


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
  Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL




       REVIEW OF MEDICAID
ADMINISTRATIVE COSTS CLAIMED FOR
       THE PENNSYLVANIA
     DEPARTMENT OF AGING’S
 DIRECT CARE WORKER INITIATIVE




                        Daniel R. Levinson
                         Inspector General

                            July 2011
                          A-03-10-00206
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Pennsylvania, the Department of Public Welfare
(State agency) administers the Medicaid program.

Section 1903(a) of the Act permits States to claim Federal reimbursement for Medicaid
administrative costs. These costs must be “for the proper and efficient administration of the State
plan.” In a December 1994 letter to State Medicaid directors, CMS (formerly the Health Care
Financing Administration) clarified its position on State claims for administrative costs, stating
that “allowable claims … must be directly related to the administration of the Medicaid
program.” CMS’s letter included a listing of allowable administrative activities, but the list was
not all inclusive. The letter also stated that claims for administrative costs cannot “reflect the
cost of providing a direct medical or remedial service, nor be used for training purposes.”

The Pennsylvania Department of Aging plans and coordinates all programs for the elderly in the
State and contracts with local Area Agencies on Aging (local agencies) to administer most of its
programs. Local agencies contract with local providers, including direct care workers, for
service delivery. There are 52 local agencies in Pennsylvania; 35 are divisions of government
and 17 are nonprofit organizations.

In State fiscal year (FY) 2000–2001, the Department of Aging implemented the Direct Care
Worker Initiative (Initiative). Its goal is to improve local agencies’ recruitment and retention of
direct care workers. Direct care workers provide care and personal assistance to older people,
chronically ill people, or people with disabilities. They include nursing assistants, home health
aides, home care workers, personal care aides and attendants, and respite care workers. The
Department of Aging provides Initiative funds to local agencies and allows them discretion on
how those funds are spent. Local agencies reported that Initiative funds were spent on bonuses,
training, and recognition events.

For State FYs 2007 through 2009, the State agency claimed $3,484,488 ($1,742,243 Federal
share) for a portion of the Initiative’s expenditures. These expenditures were claimed as a
Medicaid administrative cost.

OBJECTIVE

Our objective was to determine whether the State agency complied with Federal requirements for
its claims of Initiative costs.




                                                 i
SUMMARY OF FINDING

The State agency did not comply with Federal requirements when it claimed Initiative costs. The
claimed costs were supplemental to payments to direct care workers for direct medical services
and included training and other nonadministrative expenses. These costs were not incurred to
operate the Medicaid program, and CMS specifically prohibits claiming them as administrative
costs. Accordingly, the State agency claims totaling $3,484,488 ($1,742,243 Federal share) in
unauthorized Initiative costs for State FYs 2007 through 2009 were unallowable.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $1,742,243 in Federal funds for unallowable Initiative costs,

   •   refund the Federal share of unallowable Initiative costs claimed after our audit period,
       and

   •   discontinue all future claims of Initiative costs.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL REPSONSE

The State agency did not directly address our recommendations The State agency said that the
Initiative has a stated goal of improving recruitment and retention and that the Department of
Aging continues to believe that local agencies’ retention and educational activities are directly
related to the administration of the Medicaid program and therefore allowable. The State
agency’s comments are presented in their entirety as the Appendix.

Nothing in the State agency’s comments caused us to change our recommendations. The
Department of Aging’s claimed costs for the Initiative were not administrative costs incurred to
operate the Medicaid program.




                                                  ii
                                                  TABLE OF CONTENTS

                                                                                                                            Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Medicaid Program ........................................................................................1
              Local Area Agencies on Aging ....................................................................1
              Direct Care Worker Initiative ......................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
               Objective ......................................................................................................2
               Scope ...........................................................................................................2
               Methodology ................................................................................................2

FINDING AND RECOMMENDATIONS .......................................................................3

          FEDERAL REQUIREMENTS ................................................................................3

          UNALLOWABLE INITIATIVE COSTS CLAIMED ............................................3

          RECOMMENDATIONS .........................................................................................4

          STATE AGENCY COMMENTS AND
           OFFICE OF INSPECTOR GENERAL RESPONSE ............................................4

APPENDIX

          STATE AGENCY COMMENTS




                                                                   iii
                                              INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Pennsylvania, the Department of Public Welfare
(State agency) administers the Medicaid program.

Pursuant to section 1905(b) of the Act, States receive a Federal share for medical assistance based on
the Federal medical assistance percentage (FMAP), which varies depending on the State’s relative
per capita income. During our audit period, the FMAP in Pennsylvania was approximately
55 percent. 1 Section 1903(a) of the Act permits States to claim Federal reimbursement for
Medicaid administrative costs. These costs must be “for the proper and efficient administration of
the State plan.” Most Medicaid administrative costs are reimbursed at the 50-percent rate
(section 1903(a)(7) of the Act). However, the State agency may receive enhanced Federal
funding for some administrative costs. States claim medical assistance and administrative costs
on Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical Assistance
Program (CMS-64).

In a December 1994 letter to State Medicaid directors, CMS 2 clarified its position on State
claims for administrative costs, stating that “allowable claims … must be directly related to the
administration of the Medicaid program.” CMS’s letter provided a list of allowable
administrative activities, but it was not all inclusive. The letter also stated that claims for
administrative costs cannot “reflect the cost of providing a direct medical or remedial service.”

Local Area Agencies on Aging

The Pennsylvania Department of Aging plans and coordinates all programs for the elderly in the
State. As authorized under 42 U.S.C. § 3025(a)(2)(A), the Department of Aging designates local
Area Agencies on Aging (local agencies) to provide services for the elderly in defined planning
and service areas. Local agencies may be public or nonprofit private organizations. The
Department of Aging has designated 52 local agencies, including 35 divisions of government and
17 nonprofit organizations. The Department of Aging contracts with the local agencies to
administer most of its programs.

1
 The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5, enacted February 17,
2009, increased the FMAP to more than 63 percent in Pennsylvania for claims after October 1, 2008.
2
    The letter was issued by the Health Care Financing Administration, which was renamed CMS on July 1, 2001.



                                                         1
Local agencies contract with local providers, including direct care workers, for service delivery.
Direct care workers, including nursing assistants, home health aides, home care workers,
personal care aides and attendants, and respite care workers, provide care and personal assistance
to the elderly, chronically ill, and people with disabilities. Direct care workers provide services
to both Medicaid beneficiaries and non-Medicaid-eligible individuals.

Direct Care Worker Initiative

In State fiscal year (FY) 2000–2001, the Department of Aging implemented the Direct Care
Worker Initiative (Initiative) to provide funds to local agencies for incentives to improve the
recruitment and retention of direct care workers at its local agencies. The Department of Aging
allows local agencies discretion on how they spend Initiative funds. However, the Department of
Aging prohibits local agencies from using Initiative funds to supplement or create new cost-of-
living adjustments or to offset the local agencies’ administrative costs. Local agencies report
total expenditures for the Initiative and the percentage of the total attributable to each expense.
The Initiative was not part of the CMS-approved Medicaid program; however, the State agency
claimed a portion of Initiative costs as Medicaid administrative costs.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency complied with Federal requirements for
its claims of Initiative costs.

Scope

We reviewed the State agency’s claims for $3,484,488 ($1,742,243 Federal share) of Initiative
costs as Medicaid administrative costs for State FYs 2007 through 2009. We did not review the
overall internal control structure of the State agency. We limited our review to those controls
related to the State agency’s methodology for claiming Initiative expenditures.

We performed our fieldwork at the State agency in Harrisburg, Pennsylvania, in August 2010.

Methodology

To accomplish our objective, we:

   •    reviewed relevant criteria, including the Act, Federal Medicaid regulations, CMS letters
        to State Medicaid directors, the Medicaid State plan, and Department of Aging program
        directives;

   •    interviewed Department of Aging officials to gain an understanding of the Initiative;

   •    reviewed State agency accounting records that supported its CMS-64 claims to determine
        Initiative expenditures;


                                                2
   •   reviewed local agencies’ Initiative expenditure reports; and

   •   discussed our findings with CMS, Department of Aging, and State agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATIONS

The State agency did not comply with Federal requirements when it claimed Initiative costs. The
claimed costs were supplemental to payments to direct care workers for direct medical services
and included training and other nonadministrative expenses. These costs were not incurred to
operate the Medicaid program, and CMS specifically prohibits claiming them as administrative
costs. Accordingly, the State agency’s claims totaling $3,484,488 ($1,742,243 Federal share) in
Initiative costs for State FYs 2007 through 2009 were unallowable.

FEDERAL REQUIREMENTS

Section 1903(a) of the Act permits States to claim Federal reimbursement for Medicaid
administrative costs. These costs must be “for the proper and efficient administration of the State
plan.” CMS’s December 1994 letter to State Medicaid directors (#122094) clarifies CMS’s
policy concerning State claims for administrative costs. CMS states that “We have consistently
held that allowable claims under this authority must be directly related to the administration of
the Medicaid program.”

Although not all inclusive, CMS’s list of allowable Medicaid administrative activities provided
for Medicaid eligibility determinations, Medicaid outreach, prior authorizations for Medicaid
services, third-party liability activities, and utilization reviews. CMS also stated that allowable
administrative costs “cannot reflect the cost of providing a direct medical or remedial service,
such as immunizations or psychological counseling” and “may not include the overhead costs of
operating a provider facility, such as the supervision and training of providers.”

UNALLOWABLE INITIATIVE COSTS CLAIMED

The State agency’s claims did not reflect administrative costs as defined in the Act and later
clarified by CMS in its letter to State Medicaid directors. In correspondence to local agencies,
the Department of Aging stated that Initiative expenditures were intended to retain direct care
workers. Local agencies used Initiative funds primarily for longevity/retention bonuses, which
included cash payments as well as gas cards, mileage allowances, and uniform allowances.
Initiative funds also supported recognition events, such as dinners, picnics, the Direct Care
Worker of the Year Award, and other nonadministrative activities such as job fairs, signing
bonuses, medical and pension benefits, advertising, and childcare. This use of Initiative funds
represented supplemental payments for medical services and did not constitute expenditures for


                                                 3
administrative costs. Local agencies claimed administrative costs for training programs as well,
which CMS specifically prohibits. The table shows how the local agencies allocated their
Initiative funds to direct care worker retention efforts and not to Medicaid administrative
activities.

                          Local Agency Allocation of Initiative Funds

                                     State FY                State FY               State FY
   Use of Initiative Funds          2006–2007               2007–2008              2008–2009

Longevity/retention bonuses             73%                    68%                     75%
Training programs                       11%                    18%                     15%
Recognition events                       6%                     7%                      9%
Other                                   10%                     7%                      1%

For State FYs 2007 through 2009, the State agency improperly claimed $3,484,488 ($1,742,243
Federal share) in Initiative costs as Medicaid administrative costs.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $1,742,243 in Federal funds for unallowable Initiative costs,

   •   refund the Federal share of unallowable Initiative costs claimed after our audit period,
       and

   •   discontinue all future claims of Initiative costs.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

The State agency did not directly address our recommendations The State agency said that the
Initiative has a stated goal of improving recruitment and retention and that the Department of
Aging continues to believe that local agencies’ retention and educational activities are directly
related to the administration of the Medicaid program and therefore allowable. The State
agency’s comments are presented in their entirety as the Appendix.

Nothing in the State agency’s comments caused us to change our recommendations. The
Department of Aging’s claimed costs for the Initiative were not administrative costs incurred to
operate the Medicaid program.




                                                  4
APPENDIX
                                                                                                           Page 1 of2
                          APPENDIX: STATE
                                      .,
                                          AGENCY COMMENTS




                                  COMMONWEALTH OF PENNSYLVANIA

                                              JUN 0 1 2011




Mr. Steven Virbitsky
Regional Inspector General for Audit Services
Department of Health & Human Services
Office of Inspector General
Office of Audit Services, Region III
150 South Independence Mall West, Suite 316
Philadelphia, Pennsylvania 19106-3499 .

Dear Mr. Virbitsky:

       The Department of Public Welfare (DPW) has received the draft report number
A-03-10-00206 titled, "Review qf Medicaid Administrative Costs Claimed for
Pennsylvania's Department of Aging's Direct Care Worker Initiative". The objective of
this audit was to ensure Pennsylvania's compliance with federal regulations regarding
administrative claims for Initiative costs.

Office of Inspector General Recommendation: We recommend that the State
agency refund $1,742,243 in federal funds for unallowable Initiative costs, refund the
Federal share of unallowable Initiative costs claimed after our audit period, and
discontinue all future claims for Initiative costs.

Department of Public Welfare Response: The Pennsylvania Department of Aging's
Direct Care Worker (DCW) Initiative has a stated goal of improving local agencies'
recruitment and retention of direct care workers. The Department of Aging's .
management. reasoned that the best methodology for achieving such an outcome was
to allow Area Agencies on Aging (AAA) to expend the majority of their DCW funds on
recruitment and retention activities while also allowing the AM to establish educational
scholarships and continuing professional education activities.

        The Department of Aging continues to believe these activities are directly related
to the administration of the Medicaid program and are thereby allowable. By
emphasizing retention and training, Medical Assistance consumers are afforded the
opportunity to be cared for by professional direct care workers who are committed to
their occupation.                                       .




                              DEPUTY SECRETARY FOR ADMINISTRATION

DEPARTMENT OF PUBUC WELFARE   I   P.o. BOX 2675. HARRISBURG, PA 17105   I   717.787.3422   www.dpw.state.pa.us
                                                                                         Page 2 of2




Mr. Steven Virbitsky                    -2­


       Thank you for your assistance in this matter. If you have questions or concerns
regarding this request, please contact Maranatha Earling, Audit Resolution Section, at
(717) 772-4911.

                                        Sincerely,

                                         ~           m(l1Mi2
                                        Kevin Friel
                                        Acting Deputy Secretary for Administration

c:    Mr. Robert Baiocco, Audit Manager
